           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Termination Notification:            Date:    September 30, 2014
           Security Controls Audit of the Data
           Communications Program
           Federal Aviation Administration
           Project No. 14F3011F000

  From:    Louis C. King                                        Reply to
                                                                Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    Director, Audit and Evaluation

           On May 27, 2014, the Office of Inspector General (OIG) announced an audit of the
           Federal Aviation Administration’s (FAA) security and controls for the Data
           Communications Program (DataComm). The announced objectives were to determine
           whether (1) FAA is identifying security risks and properly mitigating them, and
           (2) FAA’s contingency plan for the system limits the effects of the loss of
           DataComm’s availability.

           We are terminating this audit. The DataComm system is currently in development and
           has not yet become operational. Consequently, it does not have a complete security
           review or contingency plan available for us to test. According to FAA, the DataComm
           system is scheduled for a security review in June 2015. At that time, we will
           determine whether to perform this audit.

           We appreciate the courtesies and cooperation of FAA representatives during our
           audit. If you have any questions or would like additional information regarding this
           terminated audit, please contact me at (202) 366-1407, or Nathan Custer, Program
           Director, at (202) 366-5540.

           cc: DOT Audit Liaison, M-1
               FAA Audit Liaison, AAE-100

                                                     #
